Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
        REVIEW OF THE
 UNIVERSITY OF IOWA HOSPITAL
     FOR CALENDAR YEARS
        2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      November 2012
                                                      A-07-12-05023
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for inpatient costs associated with the beneficiary’s stay.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for outpatient and inpatient services.

University of Iowa Hospital (the Hospital) has 729 beds and is located in Iowa City, Iowa.
Medicare paid the Hospital approximately $659 million for 515,751 outpatient and 31,110
inpatient claims for services provided to Medicare beneficiaries during calendar years (CY) 2009
and 2010 based on CMS’s National Claims History data.

Our audit covered $5,227,498 in Medicare payments to the Hospital for 321 outpatient and 77
inpatient claims that we identified as potentially at risk for billing errors for CYs 2009 and 2010.
Of these 398 claims, 395 had dates of service in CYs 2009 and 2010 and the remaining 3 claims,
involving replacement medical devices, had dates of service in CYs 2008 and 2011.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 124 of the 398 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 274 claims, resulting in overpayments totaling $826,104 for
CYs 2008 through 2011. Specifically, 245 outpatient claims had billing errors, resulting in
overpayments totaling $590,539, and 29 inpatient claims had billing errors, resulting in net
overpayments totaling $235,565. These errors occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $826,104, consisting of $590,539 in overpayments for
       the 245 incorrectly billed outpatient claims and $235,565 in net overpayments for the
       29 incorrectly billed inpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations concerning 4 outpatient claims totaling $24,521 and 29 inpatient claims
totaling $235,565; for these findings, the Hospital described corrective actions that it had taken
or planned to take.

However, the Hospital disagreed with our finding regarding 241 outpatient claims totaling
$566,180 that were billed for Lupron (a drug commonly used to treat hormone-dependent
cancers) injections. Specifically, the Hospital said that it believed that it accurately billed for
Lupron injections based upon CMS guidance at the time of the billing. The Hospital agreed with
our finding regarding the four claims billed for Lupron injections for which it could provide no
documentation that the drug had been administered.

The Hospital’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
remain valid. Specifically, we maintain that the Hospital billed 237 Lupron claims incorrectly
because it assigned incorrect Healthcare Common Procedure Coding System (HCPCS) codes for
these claims. Moreover, the Hospital’s comments did not provide us with evidence that the
correct HCPCS codes were used for any of these claims or that we applied the wrong criteria.
For the other four claims, the Hospital agreed that the medical records did not support that this
medication had actually been administered. Therefore, we continue to recommend that the
Hospital refund $566,180 related to the 241 claims.


                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Outpatient Prospective Payment System ........................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         University of Iowa Hospital ...........................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................4
          Outpatient Claims Billed for Lupron Injections ............................................................5
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................5
          Outpatient Claims With Payments Greater Than $25,000.............................................6
          Outpatient Claims Paid in Excess of Charges................................................................6

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................6
          Inpatient Claims Paid in Excess of Charges ..................................................................7
          Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes ...7
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................7
          Inpatient Post-Acute Transfers to Skilled Nursing Facilities ........................................8
          Inpatient Psychiatric Facility Transfers .........................................................................8
          Inpatient Same Day Discharge and Readmission ..........................................................9

      RECOMMENDATIONS ......................................................................................................9

      AUDITEE COMMENTS.......................................................................................................9

      OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................10

APPENDIX

      AUDITEE COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare and Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.




1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. Examples of the types of claims at risk for noncompliance included the
following:

    •   outpatient claims billed for lupron injections,

    •   outpatient and inpatient manufacturer credits for replaced medical devices,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient and inpatient claims paid in excess of charges,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient post-acute transfers to skilled nursing facilities (SNF),

    •   inpatient psychiatric facility (IPF) transfers, and

    •   inpatient same day discharge and readmission.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for outpatient and inpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” In addition, section 1833(e)
of the Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 3, section 10, of the Manual states that the
hospital may bill only for services provided. In addition, chapter 23, section 20.3, of the Manual
states that providers must use HCPCS codes for most outpatient services.


                                                   2
University of Iowa Hospital

University of Iowa Hospital (the Hospital) has 729 beds and is located in Iowa City, Iowa.
Medicare paid the Hospital approximately $659 million for 515,751 outpatient and 31,110
inpatient claims for services provided to Medicare beneficiaries during calendar years (CY)
2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.

Scope

Our audit covered $5,227,498 in Medicare payments to the Hospital for 321 outpatient and
77 inpatient claims that we judgmentally selected as potentially at risk for billing errors. Of
these 398 claims, 395 had dates of service in CYs 2009 and 2010 and the remaining 3 claims,
involving replacement medical devices, had dates of service in CYs 2008 and 2011.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
did not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the outpatient and
inpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during November 2011 to May 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s outpatient and inpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;




                                                 3
   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2008 through 2011;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 398 claims (321 outpatient and 77 inpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed and/or coded claims with Hospital personnel to determine
       the underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   shared the results of our review with Hospital officials on May 21, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 124 of the 398 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 274 claims, resulting in overpayments totaling $826,104
for CYs 2008 through 2011. Specifically, 245 outpatient claims had billing errors, resulting in
overpayments totaling $590,539, and 29 inpatient claims had billing errors, resulting in net
overpayments totaling $235,565. These errors occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 245 of the 321 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $590,539.



                                                4
Outpatient Claims Billed for Lupron Injections

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” The Manual, chapter 17, section 90.2.A, states:
“It is … of great importance that hospitals billing for [drugs] make certain that the reported units
of service of the reported HCPCS code are consistent with the quantity of a drug … that was
used in the care of the patient.” If the provider is billing for a drug, according to chapter 17,
section 70, of the Manual, “[w]here HCPCS is required, units are entered in multiples of the
units shown in the HCPCS narrative description. For example, if the description for the code is
50 mg, and 200 mg are provided, units are shown as 4 ….”

The Food and Drug Administration (FDA) identifies and reports drug products with a universally
used unique, three-segment number called the national drug code (NDC). Each quarter, CMS
provides Medicare contractors with an updated listing that cross-references the NDC to the drug
name, billing units, and HCPCS code.

Lupron is a drug commonly used to treat hormone-dependent cancers. The FDA approved
Lupron for the treatment of disorders relating to the uterus and for the treatment of prostatic
cancer. According to the NDCs in effect during our audit period, Lupron was available for the
treatment of: (1) disorders relating to the uterus, in doses of 3.75 mg once a month or 11.25 mg
once every 3 months, and was linked to HCPCS code J1950; and (2) prostatic cancer, in doses of
7.5 mg once a month, 22.5 mg once every 3 months, or 30 mg once every 4 months, and was
linked to HCPCS code J9217.

For 237 claims, the Hospital incorrectly submitted claims using the HCPCS code J1950 instead
of the correct HCPCS code (J9217) and billed with either 8 or 6 service units when the correct
amount should have been 4 or 3, respectively. For the other four claims, the medical records did
not support that this medication had actually been administered. The Hospital stated that these
errors occurred because they did not know of any CMS guidance on the use of the national drug
code to apply HCPCS codes. As a result of these errors, the Hospital received overpayments
totaling $566,180.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and to reduce the charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device.



                                                   5
For two out of four sampled claims, the Hospital received a full credit for a replaced medical
device but did not report the “FB” modifier or reduced charges on its claims. These
overpayments occurred because the Hospital did not have adequate controls to report the
appropriate modifiers and charges to reflect credits received from manufacturers. As a result of
these errors, the Hospital received overpayments totaling $17,177.

Outpatient Claims With Payments Greater Than $25,000

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 out of 17 sampled claims, the Hospital submitted the claim to Medicare with an incorrect
HCPCS code. The Hospital stated that it had initially, and erroneously, used HCPCS code 61886
(connection to two or more electrode arrays) on the claim and then corrected the claim by
changing the HCPCS code to 61885 (connection to a single electrode array). However, the
Hospital’s business office mistakenly deleted the corrected claim. As a result of this error, the
Hospital received an overpayment of $4,637.

Outpatient Claims Paid in Excess of Charges

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 20.4, states: “The
definition of service units … is the number of times the service or procedure being reported was
performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

For the claim we sampled, the Hospital submitted the claim to Medicare with incorrect units of
service. Specifically, the claim was billed with 400 units of service when the correct amount
should have been 40. The Hospital stated that although a programming adjustment was made to
detect this type of error and other accounts were corrected, this claim was not. As a result of this
error, the Hospital received an overpayment of $2,707.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 29 of the 77 sampled inpatient claims that we
reviewed. These errors resulted in net overpayments totaling $235,565.




                                                 6
Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” The Manual, chapter 1,
section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be
completed accurately.”

For 8 out of 18 sampled claims, the Hospital incorrectly billed Medicare for claims in which the
payments exceeded the charges. Specifically, for the eight claims, the Hospital submitted the
claims to Medicare with incorrectly coded DRG codes. In each of these eight claims, either the
principal or secondary diagnosis was incorrect or not supported in the medical records. The
Hospital stated these errors occurred because coding is a technical and interpretative science,
which may result in differences of opinion as to the most appropriate code. As a result of these
errors, the Hospital received overpayments totaling $166,355.

Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” The Manual, chapter 3,
section 10, states: “The hospital may bill only for services provided.” In addition, chapter 1,
section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be
completed accurately.”

For 3 out of 17 sampled claims, the Hospital submitted the claim to Medicare with incorrectly
coded DRG codes. For each of these three claims, the principal diagnosis, secondary diagnosis,
or procedure code was incorrect or not supported in the medical records. The Hospital stated
that these errors occurred because of coder misinterpretation of coding guidelines or human
error. As a result of these errors, the Hospital received overpayments totaling $41,293.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to correctly bill for a replacement device that was provided with a credit, the hospital
must code its Medicare claims with a combination of condition code 49 or 50 along with value
code “FD.”

For six out of eight sampled claims, the Hospital received a reportable medical device credit
from a manufacturer but did not adjust its inpatient claim with the appropriate condition and
value codes to reduce payment as required. These overpayments occurred because the Hospital
did not have adequate controls to report the appropriate condition and value codes in order to




                                                  7
accurately reflect credits it had received from manufacturers. As a result of these errors, the
Hospital received overpayments totaling $27,231.

Inpatient Post-Acute Transfers to Skilled Nursing Facilities

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items and
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” Federal regulations (42
CFR § 412.4(c)) state that a discharge of a hospital inpatient is considered to be a transfer when
the patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to a SNF
or to home under a written plan of care for the provision of home health services from a home
health agency and those services begin within 3 days after the date of discharge. A hospital that
transfers an inpatient under the above circumstances is paid a graduated per diem rate for each
day of the patient’s stay in that hospital, not to exceed the full DRG payment that would have
been paid if the patient had been discharged to another setting (42 CFR § 412.4(f)).

For the claim we sampled, the Hospital incorrectly billed Medicare for a patient discharge that
should have been billed as a transfer. The Hospital should have coded the discharge status as a
transfer to a SNF. However, the Hospital incorrectly coded the discharge status to home; thus,
the Hospital should have received the per diem payment instead of the full DRG payment. The
Hospital stated that it had secured a vendor to review correct discharge disposition but that this
claim was an oversight that had slipped through both its own and the vendor’s internal auditing
processes. As a result of this error, the Hospital received an overpayment of $3,079.

Inpatient Psychiatric Facility Transfers

Pursuant to 42 CFR § 412.424, CMS increases the Federal per diem rate for the first day of a
Medicare beneficiary’s IPF stay to account for the costs associated with maintaining a qualifying
emergency department. CMS makes this additional payment regardless of whether the
beneficiary used emergency department services. However, the IPF should not receive the
additional payment if the beneficiary was discharged from the acute-care section of the same
hospital.

The Manual, chapter 3, section 190.6.4.1, states that source-of-admission code “D” is reported
by an IPF to identify patients who have been transferred to the IPF from the same hospital. The
IPF’s proper use of this code is intended to alert the Medicare contractor not to apply the
emergency department adjustment.

For 10 out of 23 sampled claims, the Hospital incorrectly coded the source-of-admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute-care
section. The Hospital stated that these errors occurred because there was some confusion among
coding staff about the proper use of the “D” source-of-admission code. As a result of these
errors, the Hospital received overpayments totaling $735.




                                                 8
Inpatient Same Day Discharge and Readmission

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay onto a single
       claim.

For the claim we sampled, the Hospital billed Medicare incorrectly for a clinically related
discharge and readmission that occurred on the same day. The Hospital stated that this error
occurred because the patient was admitted to the Hospital with a certain diagnosis, was
discharged, and then returned through the emergency department with a different diagnosis than
the one rendered during the earlier admission. The different diagnoses led the Hospital’s
personnel to conclude, incorrectly, that the two admissions were clinically unrelated. However,
because the two admissions were related, the combined and correctly coded claim qualified for a
higher-paying DRG reimbursement. Accordingly, the Hospital received an underpayment
totaling $3,128.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $826,104, consisting of $590,539 in overpayments for
       the 245 incorrectly billed outpatient claims and $235,565 in net overpayments for the 29
       incorrectly billed inpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations concerning 4 outpatient claims totaling $24,521 and 29 inpatient claims
totaling $235,565; for these findings, the Hospital described corrective actions that it had taken
or planned to take.

However, the Hospital disagreed with our finding regarding 241 outpatient claims totaling
$566,180 that were billed for Lupron injections. Specifically, the Hospital said that it believed
that it accurately billed for Lupron injections based upon CMS guidance at the time of the
billing. The Hospital stated that there was no “official” guidance from either CMS or the
Medicare contractor for the correct usages of HCPCS codes J9217 and J1950. The Hospital also
said that “many of the claims that were reviewed in this audit were audited previously in another
OIG [Office of Inspector General] review, when no billing errors were found or reported.”




                                                 9
The Hospital agreed with our finding regarding the four claims billed for Lupron injections for
which it could provide no documentation that the drug had been administered.

The Hospital’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
remain valid. Specifically, we maintain that the Hospital’s use of HCPCS code J1950 billed
using 3.75 mg per service unit for prostatic cancer patients was improper, given that the correct
code is J9217 with 7.5mg per service unit. We note, too, that in 1989, the FDA approved the
7.5mg Lupron dose for prostatic cancer, and in 2001 it approved the 3.75 mg dose specifically
for disorders relating to the uterus. Further, the Manual, chapter 17, section 90.2, requires that
effective January 1, 2009, hospitals use the correct HCPCS code and ensure that the reported
units of service of the reported HCPCS code be consistent with the quantity of the drug used in
the care of the patient.

Although the Hospital mentioned in its comments that some of these claims were reviewed by
the OIG in previous audits with no billing errors identified, audits have different objectives and
scopes. We continue to assert, as part of addressing the objective of this audit, that the Hospital
billed 237 Lupron claims incorrectly because it assigned incorrect HCPCS codes for these
claims. Moreover, the Hospital’s comments did not provide us with evidence that the correct
HCPCS codes were used for any of these claims or that we applied the wrong criteria. For the
other four claims, the Hospital agreed that the medical records did not support that this
medication had actually been administered. Therefore, we continue to recommend that the
Hospital refund $566,180 related to the 241 claims.




                                                 10
APPENDIX
                                                                                                                  Page 1 of 5


                            APPENDIX: AUDITEE COMMENTS


  l
b UNIVERSITYOF IOWA
Jll11! HOSPITAIS&CLINICS                                                                    Joint Office for Compliance
      University of Iowa Health Care                                                            200 Hawkins Drive, I 346 JCP
                                                                                                 Iowa City, Iowa 52242-1009
                                                                                                             319.384-5897 Tel
                                                                                                           319.356-3862 Fax
                                                                                                       www.uiheallhcare.org


      October 29, 2012



      Department of Health and Human Services
      Office of Audit Services, Region Vll
      60 I East 12'h Street, Room 0429
      Kansas City, MO 64106
      ATIN: Mr. Patrick J. Cogley
      Regional inspector General for Audit Services

      RE: Report Number: A-07-12-05023 entitled, "Medicare Compliance Review
          ofthe University ofIowa Hospital for Calendar Years 2009 and 2010"

      Dear Mr. Cogley:

      On behalf of University of Iowa Health Care, I am providing comments to the report entitled,
      "Medicare Compliance Review of the University ofiowa Hospital for Calendar Years 2009 and
      2010." University of Iowa Health Care is committed to providing patient-focused health care
      available to every person in an environment devoted to innovative care, excellent service, and
      exceptional outcomes. We are committed to continued compliance with Medicare program
      regulations. We appreciate the opportunity to provide this response to the draft Office of inspector
      General (OIG) report.

      The objective of the audit was to determine whether Un iversity oflowa Health Care complied with
      Medicare requirements for billing outpatient and inpatient services on selected claims. T he draft
      audit states that the Hospital complied with Medicare billing requirements for 124 of the 398
      outpatient and inpatient claims reviewed. However the auditors found that the Hospital did not fully
      comply with Medicare billing requirements for the remaining 274 claims, resulting in overpayments
      totaling $826, I 04 for CYs 2008 - 20 II. It was specifically noted that 245 outpatient claims had
      billing errors, resulting in overpayments totaling $590,539, and 29 inpatient claims had billing errors,
      resulting in net overpayments totaling $235,565.

      Following are the auditors' recommendations and our responses.

      Outpatient Claims Billed for Lupron Injections:

      The audit stated that for 237 claims, we submitted claims using the HCPCS code Jl950 instead of the
      HC PCS code J9217, and that we billed with either 8 or 6 service units when the correct amount
      should have been 4 or 3, respectively. The audit asserts that our use of J1950 was incorrect. In 4
      other claims, we did not have the documentation to support that the medication was actually
      admin istered. The auditors stated that the errors occurred "because they did not know of any CMS
      guidance on the use of the national drug code to apply HCPCS codes." As a result of these errors, the
      hospital received alleged overpayments totaling $566,018.
                                                                                                          Page 2 of 5





Office of Audit Services, Region VII
Report Number: A-07- 12-05023
October 29, 2012
Page2


We disagree in principle with this finding. We believe we billed Lupron accurately based upon
Medicare guidance at the time of billing. For the dates of service in question, there was no "official"
guidance for using HC PCS codes J921 7 vs. J1950, either from CMS or our local contractor,
Wisconsin Physician Services (WPS). Additionally, many of the claims that were reviewed in this
audit were audited previously in another OIG review, when no billing errors were fou nd or reported.

The auditor suggested that in the absence of National Coverage Decisions or Local Coverage
Decisions, we should have used the package insert or the FDA label as a billing guide. We do not use
such information to apply HCPCS codes, because the H!PAA Transactions and Code Sets rules do
not approve of the use of this information for this purpose. Given that our billing was previously
reviewed by the OIG and no errors were found, we believed we were billing the Lupron injections
correctly. In May, 20 10, Lupron billing instructions were published by our local contractor. We
thereafter complied with the unit instructions as described beginning with the policy's effective date.

We disagree in principle that we incorrectly billed Lupron injections. We used billing guidance that
was available at the time that the services were provided, and were confident of our processes based
upon previous OIG audits. We agree that we should repay Medicare for the 4 claims for which we
could find no documentation of the drug administration, for a total of$ 11 ,738.36.

Our Response to Recommendations:

We have conducted or implemented the following measure: A comprehensive review of all Lupron
injection billing from the year 2008 through the present.

Outpatient Manufacturer Credits for Replaced Medical Devices:

We agree with the audit findings that the Hospital received overpayments totaling $ 17,177.

Our Response to Recommendations:

I.   Education was provided to procurement services and coders on the correct use of the FB and FC
     modifiers.

2.   We now have additional "stops" in the billing process that all claims with a nominal charge, for
     example, $1.0 I, will be manually reviewed. This claim edit assists us in identifying implants or
     devices that may have reduced cost.

3. We believe it is important to note that it is sometimes months or even years after an implant or
   device has been returned to the company or manufacturer before the facility is made aware of the
   percent of the credit that the facil ity will receive. In our conversations with the OIG auditor, we
   were made aware of a website that is available to them that helps them identify manufacturer
   credits, which is apparently not available to healthcare providers. Access to such information
   would be invaluable for providers to assist in determining device and implant credits.

Outpatient Claims With Payments Greater Than $25,000:

We agree with the audit findings that the Hospital received a single overpayment of$4,637.
                                                                                                        Page 3 of 5





Office of Audit Services, Region VII
Report Number: A-07-12-05023
October 29, 20 12
Page 3


Our Response to Recommendations:

Claims edits have been implemented for outpatient and inpatient claims paid in excess of charges,
allowing manual review of each claim.

Outpatient Claims Paid in Excess of Charges:

We agree with the audit findings that the Hospital received a single overpayment of$2,707.

Our Response to Recommendations:

Since this drug has two separate HCPCS codes and accurate assignment depends if used for ESRD or
NON-ESRD purposes, we have programming in place to look at diagnosis codes. We made a
programming adjustment and went back and corrected all accounts with an error. This one patient did
not appear on the list. However, we later sent in an adjustment claim to change the units from 400 to
40 units. This single claim appears to have been in the readjustment process when it appeared on this
audit. We continue to have programming in place to manually review claims for ESRD and NON­
ESRD drugs.

Billing Errors Associated with Inpatient Claims:

We agree with the audit find ings that the Hospital received net overpayments totaling $235,565.

Our Response to Recommendations:

I.   We provided education to coders on reporting the correct admission and discharge dispositions,
     including intra-facility psychiatric transfers and discharges to SNFs or other facilities. We
     continue to routinely monitor these intra-facility transfers.

2.   Education was provided to Financial Services on claim submission of inpatient same day
     discharge and readmission.

3. The Health Information Management (HIM) department performs daily random and focused MS­
   DRG reviews. These random reviews include Medicare claims, and particularly, high-risk
   MSDRG cases, including those with single complications and comorbidities (CCs, high-weighted
   MSDRGs and frequently targeted MSDRG cases as determined by outside auditors such as
   CERT and RAC reviews). These records are pre-bill, and the auditors communicate any findings
   to the coding staff so corrections can be made.

4. The Joint Office for Compliance (JOC) also reviews inpatient records and communicates findings
   to the HIM department for follow-up education with coding staff and improvements in
   documentation.

5. As noted in our earlier response, coding is a technical and interpretative science, which may
   result in differences of opinion on the "best" code. Additionally, coding interpretative processes
   change over time. For example, in 2008 and 2009, coders understood that if a diagnosis was
   documented by the physician, they should code it. Under today's guidance, coders are cautioned
   to be more careful in selecting the diagnoses, particularly CCs and MCCs. Currently, even if the
                                                                                                              Page 4 of 5





Office of Audit Services, Region Vll
Report Number: A-07-12-05023
October 29, 20 12
Page4


     CC or MCC is mentioned in the documentation, if the condition is not followed through the
     patient's hospital course, or otherwise well-documented, the coder would not assign the code.

6. The HIM department has increased auditing staff in order to increase the number of records that
   can be reviewed. HIM is utilizing more physician queries when there is unclear documentation in
   the health record.

7. It is sometimes difficult to ascertain the correct patient discharge disposition. Even though the
   documentation may indicate that a patient had home health referral services or plans to enter a
   skilled nursing facility, for example, these statuses can change once the patient leaves the
   hospital. We have also discovered that sometimes the patient discharge disposition we have
   entered is correct, but fo r some reason the follow-up entity did not submit a claim for services to
   Medicare; thus there is no claim evidence for Medicare that a transfer even occurred. On
   occasion, we will make follow-up calls to the entity we thought was accepting the patients, or we
   have called WPS, our Medicare Contractor, to ask if their files show a patient transfer.

     Generally speaking, our documentation accurately describes the patient's discharge disposition,
     including physician progress notes, nursing notes, social worker notes, and utilization review
     notes. We will continue to reinforce the importance of assigning the correct discharge
     disposition. We have emphasized that if the documentation is unclear, or otherwise lacking in
     sufficient detail, that we will ascertain the patient's discharge disposition by calling the referring
     agency or the payer. We have also utilized vendor services to enhance this process, and will
     continue to do so as needed.

8.   We have instituted a process whereby claims of patients who discharged and were readmitted
     within 72 hours are manually reviewed.

The University of Iowa Hospitals and Clinics takes its obligation to bill correctly very seriously and
has taken several steps to strengthen internal processes to ensure compliance with Medicare
requirements. We will continue to conduct various reviews and audits to regularly monitor coding
and billing. As noted, we disagree with the OIG findings related to billing for Lupron injections,
particularly in light of the fact that a previous OIG audit of many of these claims did not identify any
billing errors.

ln closing, we wish to note the professionalism of the OIG audit team throughout this process and
thank you for the opportunity to provide comment.

Sincerely,

 /lma'~
. ·~
   l.V~

Deborah J. Thonllan, MA, MS, RHlA, CHP
Assistant Vice President for Compliance and Accreditation
University of Iowa Privacy Officer
University of Iowa Health Care
200 Hawkins Drive, 1346 JCP
Iowa City, IA. 52242
                                                                                                    Page 5 of 5





Office of Audit Services, Region VII
Report Number: A-07-12-05023
October 29, 2012
Page 5



cc: Jean Robillard, M.D.,Vice President for Medical Affairs, University of Iowa
    Mr. Ken Kates, Associate Vice President, UI Health Care; and Chief Executive Officer, UIHC
    Mr. Ken Fisher, Vice President for Finance, UJ Health Care; and Chief Financial Officer, UIHC
